     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VI
                                                                          1100 Commerce Street, Room 632
                                                                          Dallas, TX 75242
June 15, 2010



Report Number: A-06-08-00096

Mr. Thomas M. Suehs
Executive Commissioner
Texas Health and Human Services Commission
P.O. Box 13247
Austin, TX 78711

Dear Mr. Suehs:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Nonemergency Medical Transportation Costs in
the State of Texas (Transportation Provided by Capital Area Rural Transit System). We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414 or contact Sylvie Witten, Audit Manager, at (512) 339-3071 or through email at
Sylvie.Witten@oig.hhs.gov. Please refer to report number A-06-08-00096 in all
correspondence.

                                             Sincerely,



                                             /Patricia Wheeler/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Thomas M. Suehs



Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
233 North Michigan Avenue, Suite 600
Chicago, IL 60601


cc:
Mr. Billy R. Millwee
Associate Commissioner for Medicaid and CHIP
Texas Health and Human Services Commission
P.O. Box 85200
Austin, TX 78708-5200

Mr. David M. Griffith
Internal Audit Director
Texas Health and Human Services Commission
P.O. Box 13247
Austin, TX 78711
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF NONEMERGENCY MEDICAL
TRANSPORTATION COSTS IN THE STATE
             OF TEXAS
   (TRANSPORTATION PROVIDED BY
CAPITAL AREA RURAL TRANSIT SYSTEM)




                      Daniel R. Levinson
                       Inspector General

                          June 2010
                        A-06-08-00096
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Federal regulations (42 CFR § 431.53) require each State to ensure that Medicaid beneficiaries
have transportation to and from medical providers and to describe in its State plan the methods
that the State will use to meet this requirement. Federal regulations (42 CFR § 440.170) define
transportation expenses as costs for transportation that the State deems necessary to secure
medical examinations and treatment for Medicaid beneficiaries.

During our audit period, the Texas Health and Human Services Commission (the State agency)
contracted with the Texas Department of Transportation (TxDOT) to administer the
nonemergency medical transportation (transportation) program. This program provides
transportation to and from covered health care service providers for Medicaid beneficiaries and
other eligible recipients. TxDOT subcontracts with transportation providers.

One transportation provider, Capital Area Rural Transportation System (CARTS), provides these
transportation services to 10 Texas counties. During calendar year (CY) 2007, the State agency
claimed $2,686,558 ($1,343,279 Federal share) for medical transportation services provided by
CARTS.

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicaid reimbursement for
transportation services provided by CARTS in accordance with Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Medicaid reimbursement for transportation services
provided by CARTS in accordance with Federal and State requirements. Of 100 sampled
transportation claim payments to CARTS for CY 2007, 38 were allowable. However, 35 claims
were unallowable or partially unallowable for the following reasons:

   •   Transportation was provided by drivers who did not have a criminal background check or
       who had a prohibited criminal history on file with CARTS (17 claims).

   •   The beneficiary cancelled the transportation request in advance of the trip or was a “no-
       show” at the origination address (11 claims).


                                                i
   •   The beneficiary did not receive a Medicaid-covered health care service on the
       transportation date (five claims).

   •   The claims were paid at a premium rate applicable for transportation between two
       counties when the transportation was actually provided within the same county (two
       claims).

As a result, CARTS received $3,158 in overpayments. Based on our sample results, we
estimated that CARTS received overpayments of at least $583,244 ($291,622 Federal share) for
CY 2007.

In addition, the available documentation was insufficient to determine whether all or part of 27
claims met Federal and State requirements. In some cases, the State agency was unable to
support that the service provided was covered by Medicaid, or we were unable to locate a
medical provider to determine whether a beneficiary received a Medicaid-covered health care
service on the date of transportation. In other cases, CARTS did not maintain adequate
documentation to support the transportation service claimed. As a result, we are setting aside
estimated costs of $337,378 ($168,689 Federal share) for further review by CMS.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $291,622 (Federal share) for claims that did not comply with Federal and State
       requirements;

   •   ensure that controls are in place to prevent payment for transportation services on dates
       when beneficiaries do not receive a Medicaid-covered health care service;

   •   work with CARTS to implement controls to ensure that cancelled and “no-show” trips
       are not claimed, that drivers receive criminal background checks in a timely manner, and
       that the correct rate is paid for transportation; and

   •   work with CMS to resolve the $168,689 (Federal share) paid for transportation services
       that were provided but may not otherwise have complied with Federal and State agency
       requirements.

STATE AGENCY COMMENTS

The State agency said that it will work with CARTS to determine whether the unallowable
services identified in our report complied with Federal and State requirements and that it will
refund the Federal share for those services. The State agency also said that it will assess the
feasibility of incorporating Medicaid provider enrollment information in the new Medical
Transportation Program trip scheduling system to detect and prevent payments for transportation
services on dates when the beneficiaries do not receive a Medicaid-covered health care service.



                                                ii
The State agency added that it will require CARTS to submit documentation to ensure that
cancelled and “no-show” trips are not claimed, drivers receive criminal background checks in a
timely manner, and the correct rate is paid for transportation. In addition, the State agency said
that it will conduct enhanced monitoring of transportation services provided by CARTS. Lastly,
the State agency said that it will work with CMS to review the transportation services identified
in our report that may not comply with Federal and State requirements and that it will refund the
Federal share of any payments that did not meet applicable requirements. The State agency’s
comments are included in their entirety as Appendix C.




                                                iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION.......................................................................................................................1

          BACKGROUND ..............................................................................................................1
              Nonemergency Medical Transportation Program in Texas ..................................1
              Capital Area Rural Transportation System. ..........................................................1
              State Requirements ...............................................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2
               Objective ...............................................................................................................2
               Scope .....................................................................................................................2
               Methodology .........................................................................................................3

FINDINGS AND RECOMMENDATIONS .............................................................................4

          CRIMINAL BACKGROUND CHECK NOT PERFORMED
           OR DRIVER HAD A PROHIBITED CRIMINAL HISTORY.....................................5

          TRANSPORTATION WAS NOT PROVIDED ..............................................................5

          MEDICAID-COVERED SERVICE NOT PROVIDED
           ON DATE OF TRANSPORTATION ...........................................................................6

          TRANSPORTATION CLAIMED AT THE INCORRECT RATE .................................6

          INSUFFICIENT DOCUMENTATION............................................................................6

          RECOMMENDATIONS ..................................................................................................7

          STATE AGENCY COMMENTS .....................................................................................7

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iv
                                      INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Federal regulations (42 CFR § 431.53) require each State to ensure that Medicaid beneficiaries
have transportation to and from medical providers and to describe in its State plan the methods
that the State will use to meet this requirement. Pursuant to 42 CFR § 440.170, transportation
expenses include transportation costs and related travel expenses deemed necessary by the State
agency to secure medical examinations and treatment for a beneficiary.

Nonemergency Medical Transportation Program in Texas

During our audit period, the Texas Health and Human Services Commission (the State agency)
contracted with the Texas Department of Transportation (TxDOT) to administer the
nonemergency medical transportation (transportation) program. This program provides
transportation to and from covered health care services for Medicaid beneficiaries and other
eligible recipients. TxDOT subcontracts with transportation providers.

Capital Area Rural Transportation System

Capital Area Rural Transportation System (CARTS) is 1 of 15 transportation providers that
contracts with TxDOT to provide transportation services to a designated service area. The State
agency designates one or more groups of counties as a transportation service area. There are a
total of 24 service areas statewide. CARTS provides transportation to one service area that
includes 10 counties in Central Texas.

The State agency claimed nonemergency transportation payments to CARTS as administrative
services on the Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program
(Form CMS-64). In calendar year (CY) 2007, the State agency paid CARTS $2,686,558 for
26,798 claims.

State Requirements

The Texas Administrative Code (§ 380.203) states that the transportation program includes
“reasonable transportation of a prior authorized [Medical Transportation Program] recipient to
and/or from a prior authorized health care facility where health care needs will be met.” In
addition, § 380.209 states that the transportation program does not cover “transportation of




                                               1
individuals to services which are not covered by the applicable state or federal medical assistance
program under which the recipient qualifies.”

The Texas Medicaid State plan, Attachment 3.1-D, states that transportation providers that
provide medical transportation services as administrative services, which includes CARTS, must
comply with applicable Federal and State rules and regulations and fulfill all the terms of the
transportation contract.

The transportation contract between TxDOT and CARTS requires annual criminal background
checks on drivers before they begin providing transportation services. The contract requires that
the background check cover a minimum of 7 years and states that individuals with any criminal
history should not be allowed to participate in providing transportation services. It also gives
CARTS the discretion to use drivers with a criminal history prior to the 7-year period. The
background check should include, but not be limited to, felony or misdemeanor convictions of
any violent crimes, abusive behavior, sex offenses, or fraud in any jurisdiction. In addition,
drivers with any finding by law enforcement of driving while intoxicated or driving under the
influence of any substance that may impair a driver’s ability to safely operate a motor vehicle
should not provide transportation services.

The contract also states that subcontractors must meet the same requirements as CARTS. Under
the terms of the contract, CARTS assumes responsibility for the performance of all
subcontractors and is held solely responsible and accountable for the completion of all
subcontracted work.

OBJECTIVE, SCOPE, AND METHODOLODY

Objective

Our objective was to determine whether the State agency claimed Medicaid reimbursement for
transportation services provided by CARTS in accordance with Federal and State requirements.

Scope

Our review covered transportation service payments totaling $2,686,558 ($1,343,279 Federal
share) that the State agency paid to CARTS in CY 2007.

We limited our review of internal controls to understanding the preauthorization and scheduling
of transportation services, driver procedures and documentation, and the billing, claiming, and
reimbursement procedures for CARTS and the State agency.

We conducted fieldwork at the State agency and CARTS’s office in Austin, Texas.




                                                2
Methodology

To accomplish our objective, we:

   •   reviewed Federal and State laws and regulations related to Medicaid transportation
       services;

   •   reviewed CARTS’s contract with TxDOT;

   •   interviewed State agency officials regarding beneficiaries’ eligibility for transportation
       services, prior authorization and scheduling of services, and the claims verification and
       monitoring process;

   •   reconciled the State agency’s claim for transportation services for the quarter ending
       December 31, 2007, on the Form CMS-64 to supporting documentation;

   •   interviewed CARTS officials regarding policies and procedures used to record, modify,
       cancel, audit, and claim transportation services; and

   •   selected a random sample of 100 claims for transportation services submitted by CARTS
       for CY 2007.

For the 100 sampled claims, we determined whether the claims met Federal and State
requirements for Medicaid reimbursement. Specifically, we:

   •   reviewed CARTS’s documentation regarding the beneficiary, origination and destination
       addresses, prior authorizations, and the driver and vehicle utilized;

   •   reviewed the payments made to CARTS to determine whether the rates paid were in
       accordance with the contract for the type of service, the number of passengers, and the
       number of one-way trips provided;

   •   reviewed CARTS’s documentation of the drivers’ criminal background checks to
       determine whether each driver was free of a criminal history, as defined under the
       contract between TxDOT and CARTS, within 7 years of the dates of hire;

   •   reviewed CARTS’s documentation of the drivers’ moving violation records to determine
       whether each driver was free of any finding of driving while intoxicated or driving under
       the influence of any substance;

   •   reviewed CARTS’s documentation of State vehicle registrations and annual State
       inspections to determine whether each vehicle had a current registration and inspection at
       the time of the transportation service;




                                                3
   •   analyzed claims data from the State Medicaid Management Information System (MMIS) to
       determine whether each beneficiary obtained a Medicaid-covered health care service on the
       date of the transportation service;

   •   requested a confirmation from Medicaid providers that they provided a Medicaid-covered
       service to those beneficiaries that did not have a Medicaid claim documented in the MMIS on
       the date of the transportation service; and

   •   quantified the number of claims paid and estimated the total dollar amount that the State
       agency claimed for reimbursement for transportation services on dates when (1)
       beneficiaries did not receive Medicaid-covered services, (2) transportation was not
       provided, (3) transportation was provided by drivers with no criminal background check
       or a prohibited criminal history, or (4) services were claimed at the incorrect rate. (See
       Appendixes A and B.)

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                            FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Medicaid reimbursement for transportation services
provided by CARTS in accordance with Federal and State requirements. Of 100 sampled
transportation claim payments to CARTS for CY 2007, 38 were allowable. However, 35 claims
were unallowable or partially unallowable for the following reasons:

   •   Transportation was provided by drivers who did not have a criminal background check or
       who had a prohibited criminal history on file with CARTS (17 claims).

   •   The beneficiary cancelled the transportation in advance of the trip or was a “no-show” at
       the origination address (11 claims).

   •   The beneficiary did not receive a Medicaid-covered health care service on the
       transportation date (five claims).

   •   Services were paid at a premium rate applicable for transportation between two counties
       when the transportation was actually provided within the same county (two claims).

As a result, CARTS received $3,158 in overpayments. Based on our sample results, we
estimated that CARTS received overpayments of at least $583,244 ($291,622 Federal share).

In addition, the available documentation was insufficient to determine whether all or part of 27
claims met Federal and State requirements. In some cases, the State agency was unable to
support that the service provided was covered by Medicaid, or we were unable to locate a


                                                4
medical provider to determine whether a beneficiary received a Medicaid-covered health care
service on the date of transportation. In other cases, CARTS did not maintain adequate
documentation to support the transportation services claimed. As a result, we are setting aside
estimated costs of $337,378 ($168,689 Federal share) for further review by CMS.

CRIMINAL BACKGROUND CHECK NOT PERFORMED
OR DRIVER HAD A PROHIBITED CRIMINAL HISTORY

The State agency claimed reimbursement for 17 claims for transportation provided by CARTS
and subcontractor drivers who did not have annual criminal background checks or who had
prohibited criminal histories on file with CARTS.

Of the 17 claims, 15 were for transportation provided by 2 CARTS drivers and 5 subcontractor
drivers who did not have an annual criminal background check on file with CARTS. The
CARTS drivers were 5 and 6 months, respectively, overdue for their initial criminal background
checks at the time they provided transportation. We requested that CARTS perform a criminal
background check for both drivers during our onsite visit and found that neither had a history
that would have prohibited them from participating as a CARTS driver. For the five
subcontractor drivers, three did not have a criminal background check on file with CARTS and
two were 6 and 8 months, respectively, overdue for a renewal criminal background check at the
time they provided transportation.

Two of the seventeen claims were for transportation provided by two CARTS drivers who had
on file with CARTS criminal histories that should have prohibited them from participating as
CARTS drivers for the transportation program. One driver’s criminal history included two
counts of DWI and one count of intoxicated assault with a vehicle. The other driver had one
count of a misdemeanor assault with bodily injury within 7 years of his date of employment with
CARTS. The contract between TxDOT and CARTS prohibited CARTS from employing a
driver with any history of driving while intoxicated. The contract also prohibits CARTS from
employing a driver convicted of any felony or misdemeanor involving a violent crime within 7
years of the date of employment.

These lapses with criminal background checks occurred because CARTS did not have written
policies and procedures to ensure that these checks were conducted in a timely manner and in
accordance with the terms of the contract between TxDOT and CARTS. The CARTS official
responsible for performing the criminal background checks told us that he had many other
responsibilities and did not always remember to run the criminal background checks when they
were due.

TRANSPORTATION WAS NOT PROVIDED

The State agency claimed reimbursement for 11 claims for transportation that CARTS did not
actually provide. Of these 11 claims, CARTS’s documentation confirmed that 8 transportation
requests were canceled by the beneficiary in advance of the trip, or the beneficiary was a “no-
show” at the scheduled origination address. The remaining three claims were paid based on the
cost of a round trip even though CARTS’s documentation showed that CARTS provided



                                                5
transportation for only one leg of the trip; the other leg was either cancelled or not scheduled.
CARTS officials told us that staff members were instructed to change the billing status of the trip
to reflect cancellations and “no-shows” when they had extra time. However, CARTS did not
have written procedures in place to ensure that the process was completed.

MEDICAID-COVERED SERVICE NOT PROVIDED ON DATE OF
TRANSPORTATION

The State agency claimed reimbursement for five transportation claims with dates of service on
which beneficiaries did not receive a Medicaid-covered health care service. The providers
located at the destination addresses for all five claims confirmed that the beneficiary was a
patient of theirs but that they had not provided a Medicaid-covered medical service to the
beneficiary on the date of transportation. State agency officials told us that as of January 2008,
the transportation program implemented procedures to match transportation claims to MMIS
data to verify that a Medicaid-covered health care service was provided on the date of
transportation.

TRANSPORTATION CLAIMED AT THE INCORRECT RATE

The State agency claimed the incorrect rate for two transportation claims submitted by CARTS.
The transportation costs for these claims were paid at a premium rate because the scheduled
origination and destination addressees provided by the State were incorrectly shown to be in
different counties. However, the origination and destination addresses were actually in the same
county; thus, the claims should have been paid at the lower regular rate.

State officials told us that prior to January 2009, determining the identification of the county for
the origination and destination address was a manual process. Intake staff at the transportation
program’s call centers relied on the beneficiary or the transportation provider to identify the
correct counties. Alternatively, the intake staff used search engines or relied on their own
working knowledge to identify the correct origination and destination counties. The State
agency concurred with our assessment that the claims were paid at the incorrect rate and added
that effective January 2009, it had implemented a software package that automatically identified
the correct county based on the origination and destination addresses.

INSUFFICIENT DOCUMENTATION

There was insufficient documentation available to determine whether all or part of 27 claims met
Federal and State requirements. For eight claims, the State agency did not have a corresponding
Medicaid-covered health care claim for the beneficiary on the date of transportation. In addition,
we were unable to locate a medical provider from the scheduled destination address to determine
whether the beneficiary received a Medicaid-covered health care service. For 13 claims, CARTS
did not have a beneficiary signature showing that the transportation service had been provided,
as required by the contract. For the remaining six claims, CARTS could not identify the vehicle
to determine whether it met registration and inspection requirements or identify the driver to
determine whether he or she met criminal and driving history requirements.




                                                  6
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $291,622 (Federal share) for claims that did not comply with Federal and State
       requirements;

   •   ensure that controls are in place to prevent payment for transportation services on dates
       when beneficiaries did not receive a corresponding Medicaid-covered health care service;

   •   work with CARTS to implement controls to ensure that cancelled and “no-show” trips
       are not claimed, that drivers receive criminal background checks in a timely manner, and
       that the correct rate is paid for transportation; and

   •   work with CMS to resolve the $168,689 (Federal share) paid for transportation services
       that were provided but may not otherwise have complied with Federal and State agency
       requirements.

STATE AGENCY COMMENTS

The State agency said that it will work with CARTS to determine whether the unallowable
services identified in our report complied with Federal and State requirements and that it will
refund the Federal share for those services. The State agency also said that it will assess the
feasibility of incorporating Medicaid provider enrollment information in the new Medical
Transportation Program trip scheduling system to detect and prevent payments for transportation
services on dates when the beneficiaries do not receive a Medicaid-covered health care service.

The State agency added that it will require CARTS to submit documentation to ensure that
cancelled and “no-show” trips are not claimed, drivers receive criminal background checks in a
timely manner, and the correct rate is paid for transportation. In addition, the State agency said
that it will conduct enhanced monitoring of transportation service provided by CARTS. Lastly,
the State agency said that it will work with CMS to review the transportation services identified
in our report that may not comply with Federal and State requirements and that it will refund the
Federal share of any payments that did not meet applicable requirements. The State agency’s
comments are included in their entirety as Appendix C.




                                                7
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY
POPULATION
The population consisted of all Medicaid claims paid during calendar year (CY) 2007 for
nonemergency medical transportation provided by Capital Area Rural Transportation System
(CARTS).

SAMPLING FRAME
The State agency provided us with a database of Texas Medicaid payments made during CY
2007 for transportation services. To determine the sampling frame for this sample, we extracted
from the database the transportation payments made to CARTS. Of the $51,009,926
($25,504,963 Federal share) in transportation payments made to the transportation providers in
the 10 Texas service areas during CY 2007, CARTS received $2,686,558 ($1,343,279 Federal
share) for 26,798 claims. The sampling frame consisted of these claims.

SAMPLE UNIT
The sample unit was an individual paid Medicaid claim for transportation provided by CARTS.

SAMPLE DESIGN
We used a simple random sample.

SAMPLE SIZE
We selected a sample size of 100 transportation claims.

SOURCE OF RANDOM NUMBERS
We used the Office of Inspector General, Office of Audit Services, statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS
We consecutively numbered the sample units in our sampling frame from 1 to 26,798. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY
We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the total value of overpayments.
                 APPENDIX B: SAMPLE RESULTS AND ESTIMATES
                  Sample Results for Improper Transportation Services

 Sampling          Value of        Sample         Value of       Number of      Value of
Frame Size          Frame           Size           Sample        Improper      Improper
                   (Federal                       (Federal       Payments      Payments
                    Share)                         Share)                       (Federal
                                                                                 Share)
  26,798          $1,343,279         100           $5,551            35          $1,579


                  Estimated Value of Improper Transportation Services
                  (Limits Calculated for a 90-Percent Confidence Interval)
                               Point estimate       $423,073
                               Lower limit          $291,622
                               Upper limit          $554,525


              Sample Results for Potential Overpayment Amounts Set Aside

 Sampling        Value of       Sample Size      Value of       Number of       Value of
Frame Size        Frame                           Sample         Potential     Potential
                 (Federal                        (Federal       Improper       Improper
                  Share)                          Share)        Payments       Payments
                                                                                (Federal
                                                                                 Share)
  26,798        $1,343,279          100           $5,551            27            $944


             Estimated Value of Potentially Improper Transportation Services

                  (Limits Calculated for a 90-Percent Confidence Interval)

                               Point estimate       $253,040

                               Lower limit          $168,689

                               Upper limit          $337,391
                                                                                                                    Page 1 of 4


                     APPENDIX C: STATE AGENCY COMMENTS




                     TEXAS H EArTH AND H UM!\N SERVICES COMM ISSION



                                                                                                l'l IO.~IA S   M SUEIIS
                                                                                              E"~(1.,1 1'"~ CO""ISS<Q~~.


                                                  May 27. 2010


    Ms. Patrieia Wheeler
    Regional Inspector Gcneral for Audit Services
    Omce of Inspector General. omcc of Audit Services
    1100 Commerce. Room 632
    Dallas. Texas 75242

    Reference Report Number A-06-08-00096

    Dear Ms. Wheeler:

The Texas Health and Human Services Commission (HHSC) received a draft audit report
entitled "Review of Nonemergcncy Medical Transportation Costs in the State of Texa~
(Transportation Provided by Capital Area Rural Transit System)" from the Dcpanment of J lealth
and 1·luman Services Office of Inspector General. The cover letter. dated Apri l 27, 20 I 0,
requested that HHSC provide \\Titten comments, including the status of actions taken or planned
in response to the report recom mendations.

The report identified recommendations lor HHSC to co n ~ider regarding the paymenl for
Medicaid transportation services to the Capital Area Rural Transit System (CARTS) and other
transportation services area providers (TSAPs) on behalf of Medicaid heneficiaries. These
recommendations address:

•     Refunding the federal share for CA RTS transportation services that did nOI comply with
      fedcral and state requirements and working with the Centers for Medicare ami ML>dicaid
      Services (eMS) to resolve amounts paid thai may not have complied Wilh applicable
      requirements.

•     Ensuring controls are in place to prevent payment for Iransportation services on dat!::!; when
      beneliciaries do not receive a Medicaid-covered health care service.

•     Ensuring CARTS has controb in place to prevent cance!led and "no-show" trips from ~ing
      submi tted for reimbursement. drivers receive criminal background checks in a timel y
      manner. and the correct rate is paid lor lIansportlltion services.

    P.O. ~O!<t3247   •   AUSlin.Texa\ 787tt   •   4900NorthLamar.AuSlin.Te~a~   7K7.'il   •   512-42.I-MOO
                                                                                                     Page 2 of 4





 Ms. Patricia Wheeler
 May 27, 2010
 Page 2


 This managemcnt response includes comments related to these recommendations (lnd details
 related to actions HHSC has completed or planned.

 Sum ma rv Response

l-UiSC arranges transportation services after validating the beneficiary's Medicaid eligibility.
Once eligibility is confirmed and no other means of transportation is available, transportation
services are arranged through a transportation sen'ice provider to take the beneficiary to the
health care provider of choice to recei ve services. The beneficiary provides the pick-up and
drop-off locations, and other information is communicated by HHSC to the applicable
tr.msportation service provider, who arranges transportation for the beneficiary. At the
conclusion of the trip, the transportation service provider drivcr asks the beneficiary to sign a
drivers log to confirm that the transportation was provided.

HHSC Medical Transportation Program (MTP) staff performs desk reviews and on-site
monitoring on a regular basis to determine whether transportation servicc providers are
maintaining sufficient documentation to support the services provided. Payments for
transportation claims that are found to lack appropriate supporting documentation are recouped,
and the federal share is returned to CMS.

Detailed responses to the DIG recommendations follow.

DHHS/QIG Reco mmendatio n: We recommend thai the Slale agenq refund 5291.612
(Federal share) for claims Ihat did no/ comply with Federal alld Slate requiremenl.,·.

HHSC Management Response

Actions Planned:

HHSC will work with CARTS to review thc transportation services identified in the audit that
reportedly did not comply with federal and state requirements and refund the fedent! share of any
amounts paid for scrvices that did not meet applicable requirements.

Estimated Completion Date:             No later than 60 days after agreement is reached with eMS
                                       regarding any unallowable services.

T itle of I~es pon s i b l e Person:   Director, Medical Transportation Program

DHHS/OIG Rccommt·ndatioll: We recOII/meml,hal the Slale agency ensure thaI cOlI/rols are
ill place 10 prerelll paymenl for Ir,,"sporlatiOIl services Oil dtltes when belleficiaries do 1101
recei\'e a Medicaid-covered health care ser~·ice.
                                                                                                         Page 3 of 4





 Ms. P3tricia Whccler
 M<lY 27. 2010
 Pagc 3


 HHSC Management Response

 Actions Planned:

 To address the concern of tmnsportation services being provided on dates when beneficiaries do
 not receive a Medicaid-covered he31th care service. HHSC will assess the feasibility of
 incorporating Medicaid provider enrollment infonn<llion in the new MTP trip scheduling system
 in order 10 associate each transportation service to a particular enrolled Medicaid provider.

 [n 3ddition_ HHSC will consider what other practical approaches for preventing and detecting
 payment for transponation services on dates when beneficiaries do not receive a Medicaid­
 covered health care service thaI could be effectively im plemented_

 Estimated Compil-liOIl Date:      August201l

Title of Responsible Person:       Director, Medical Transportation Program
                                   Director, Commission Information Technology

OHHS/OIG Recommendation: We r/:Commend Ihtu Ihe Siale agent)' work wilh CARTS-Io
imp/emenl con/ro/s Iv em-ure Ihal cancelled and "lIo-show" lrip~' are 1101 daimed. Ihal drivers
recdl'e criminal background (-heeks in a limely manner, and thallhe correCI role is IXlidlor
Iranspwlation.

l\1allagemenl Respunse

Aelions I'lanllcd:

HI-ISC will require CARTS to submit documentation outlining the processes and controls for
ensuring: (I ) cancelled and "no-show" trips are not claimed: (2) drive rs receivc criminal
background checks in a timely manner; and (3) the correct rate is paid for t ran~portat ion_ HHSC
will review CARTS processes and con1rols during on-site monitoring visits.

IlllSC will conduct enhanced monitoring of transportation services provided by CA RTS _ These
enhanced ctTons will address a r(·view of processes to ensure: (1) cancelled trips aR· not
submitted for payment; (2) dri ver criminal background chccks occur in a timely manner: and
(3) th t.· COrrt'C1rail· is paid for transportation services. Transporta1ion claims that aTe fo und to
lack appropriate support ing documentation will be recouped and the federal share relumed.

Estirnatl"d Completioll Date: •      Jul y 2010 - Submission of CARTS docul11entation
                              •      Ongoing - Enhanced monitoring will continue until
                                     improvcmcnt is consistentl y demonstrated

T i1le or I{cspollsib!c Person: Director, Medical Transponation Program
                                                                                                         Page 4 of 4





  Ms. Patricia Wheeler
  May 27. 20 10
  Page 4


  DIUtS/Ole ReeOllllllendation : We recommend Ihal Ihe Slale agenq lI"ork 11";111 eMS /0
  resoh'e the 5168.689 (Federal share) plIidfor (wlIsporta/iOIl sen'ices (IUI( 11'ere prOl'id('(1 but
  lIIay not othf'Mvise hm'e ('olllplied willi Fedeml ami SIlI/e agellcy requirements.

  HHSC Man age ment Response

  Actions Pla nned :

  r lHSC will wor k with CMS to rev iew the transport<llion services idcntilicd in the <ludit thut may
  not comply with federal and state req ui rements. Once completed, UHSC will refu nd the ICdcral
  shure of any amounts paid for services that did not meet applicable requiremems.

  Estinlated Completion Date:       No later than 60 days after agreement is reac hed with
                                    eMS rega rding (lny una!lowable services.

  T itle of Res ponsible I'erson:   Director, Medical lransport<ltion I' rogram

  If you have any questions or requ ire additional infonnation. please contact David M. Griffith.
  HHSC Imemal Audit Director. Mr. Griffith may be reached by telephone at (5 12) 424-6998 or
  bye-mail at David.G ri ffith@hhsc.slate. tx.us.




- s;"~y~\ ~ ly s J-,
  Thomas M. Suehs
